NRC: OIG/95C-14 - Improvements Needed in NRC's Oversight of Parking Garage Management Services
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1995 >  OIG/95C-14
OIG/95C-14 - Improvements Needed in NRC's Oversight of Parking Garage Management Services
Contents
Overview
Report Synopsis
Introduction
Background
Inadequate NRC Oversight of the Contractor's Financial Controls
Unclear Contract Terms
Conclusions
Recommendations
Agency Comments
Objectives, Scope, and Methodology
Agency Comments on Draft Report
U.S. NRC Functional Organization Chart
Major Contributors to this Report
Glossary: Office of the Inspector General Products
Overview
Office of The Inspector General United States Nuclear Regulatory Commission Washington, D.C.  20555 September 8, 1995
Memorandum To:
James M. Taylor
Executive Director for Operations
From:
Thomas J. Barchi
Assistant Inspector General for Audits
Subject:
Improvements Needed in NRC's Oversight of Parking Garage Management Services Attached is the Office of Inspector General's (OIG) report entitled "Improvements Needed in NRC's Oversight of Parking Garage Management Services."
On August 21, 1995, the Deputy Executive Director for Nuclear Materials Safety, Safeguards and Operations Support responded to our draft report.  He agreed with our recommendations and provided us with details of corrective actions taken to date as well as other observations.  We responded to these comments and made appropriate changes as warranted to the report.
Attachment:
As stated
cc:
H. Thompson, EDO
J. Milhoan, EDO
K. Cyr, OGC
J. Hoyle, SECY
D. Rathbun, OCA
J. Blaha, EDO
R. Scroggins, OC
P. Norry, ADM
G. Cranford, IRM
R. Bangart, OSP
W. Russell, NRR
E. Jordan, AEOD
D. Morrison, RES
C. Paperiello, NMSS
J. Funches, ICC
W. Beecher, OPA
T. Martin, Region I
S. Ebneter, Region II
H. Miller, Region III
L. Callan, Region IV
OPA-Region I
OPA-Region II
OPA-Region III
OPA-Region IV
OPA-RIV Walnut Creek
Report Synopsis
The Nuclear Regulatory Commission (NRC) currently has a contract with TECOM, Inc. to manage the agency's Headquarters facilities.  Parking garage management is one of several requirements included in NRC's contract with TECOM.  The Office of the Inspector General has reviewed NRC's oversight of the parking garage management services under the facilities contract.  We also audited TECOM's billings to NRC for these services in the first year of operations.
Our review disclosed that NRC did not effectively manage the financial aspects of parking garage management services.  Specifically, NRC did not adequately review and approve TECOM's collections from sales of parking permits and contractor fees for managing the garage.  Furthermore, NRC did not modify or clarify pertinent contract requirements.  These conditions led to unreported monthly permit sales, inconsistent and uncollected daily charges, and inaccurate contractor fees.
We also found that TECOM failed to establish adequate financial controls for the parking aspects of the contract.  Our audit of TECOM billings disclosed unreported monthly permit sales of $9,314, uncollected daily charges of up to $4,000, and unassessed penalties of as high as $12,000.  Due to unclear contract terms, however, we believe that NRC will find it difficult to recover amounts due for daily charges and penalties.
Our report contains three recommendations for improving NRC's oversight of
parking garage management services and for determining if additional monies
are due NRC.
Introduction
The Office of the Inspector General (OIG) has reviewed the U.S. Nuclear Regulatory Commission's (NRC) oversight of the parking garage management services under the Contract No. NRC-10-94-141 with TECOM, Inc.  In addition, we audited TECOM's billings to NRC for garage management services for the period March 22, 1994 through March 31, 1995.
In a memorandum dated April 14, 1995, NRC's Division of Contracts (DC), Office
of Administration, requested that OIG conduct an audit of the parking garage
management services. DC requested the audit because of its concerns with TECOM's
reporting of parking garage collections in March 1995. Appendix I contains a
detailed description of our objectives, scope, and methodology.
Background
The parking garage management services are part of NRC's overall contract that provides commercial facilities management services to One White Flint North (OWFN) and Two White Flint North (TWFN).  This firm fixed price contract began on March 7, 1994 and provides for facility and parking management, custodial requirements, and maintenance.  The contract for basic services in the base year and four option years is valued at about $10.7 million.  Section C.3.7 of NRC-10-94-141 contains the contractual requirements for parking garage management services.
There are approximately 1,100 available spaces in the White Flint Garage Complex for monthly and daily parking.  TECOM collects monies from sales of monthly and hourly/daily parking permits and prepares Daily Parking Logs and Monthly Parking Logs to support collections.  In accordance with contract terms, TECOM prepares a Monthly Parking Collection Statement reflecting actual sales of monthly and daily permits less the contractor's monthly fee for parking garage management services.  The Monthly Parking Collection Statement along with the net proceeds are provided to NRC early the following month.  Total collections, fees, and net proceeds from parking garage management services from March 22, 1994 through March 31, 1995 were:
Collections:
From sale of monthly permits
$678,264
From sale of daily permits
34,510
Total Collections
$712,774
TECOM's Fee
-88,971
Net Proceeds to NRC
$623,803
NRC's Contracting Officer is responsible for negotiating and awarding the contract
on behalf of NRC, making changes and amendments to the contract, making final
settlements on all invoices, and imposing payment deductions (penalties) for
unsatisfactory performance. NRC's Project Officer is responsible for monitoring
contract performance, inspecting and accepting services, reviewing contractor
invoices and performance reports, and providing technical direction to the contractor.
NRC's Administrative Service Center (ASC) is responsible for providing 1) lists
of approved applicants for monthly parking and 2) lists of individuals who may
park without charge.
Findings
Overall, we found that inadequate NRC oversight of the contractor's financial
controls, coupled with unclear contract terms regarding parking requirements,
unnecessarily exposed the Government to potential fraud, waste, and abuse. As
a result, thousands of dollars were either uncollected or not properly remitted
to NRC. Although an investigation into monthly parking fees did not disclose
fraud, we found that $9,314 was not properly reported. Our audit also disclosed
daily parking fees of up to $4,000 that were not collected during the four-month
period ending July 31, 1994.
Inadequate NRC Oversight of the Contractor's Financial Controls
We found that NRC failed to adequately review daily and monthly permit sales, and TECOM's fee as claimed on the contractor's Monthly Parking Collection Statements.  Unlike other portions of the contract, such as for custodial service, TECOM is not required to prepare and submit an invoice for parking garage management services.  As such, NRC does not review the Collection Statements in accordance with Management Directive (MD) 11.3, "NRC Review of Contractor Invoices."  In discussions with NRC staff, we found no basis for this lack of formal review.  We believe this is a fundamental weakness and that NRC should review and approve the Monthly Parking Collection Statements as it does all invoices.  Review and approval, through MD 11.3 procedures or a more tailored review process, is particularly important to ensure the Government's interest is adequately protected.
Although NRC staff told us they did some limited reviews, such as determining
which NRC employees purchased monthly permits, we found no evidence that any
such reviews were made or that the results were communicated to TECOM prior
to March 1995. This general lack of NRC review and inadequate TECOM financial
controls resulted in unreported monthly permit sales, inconsistent and uncollected
daily charges, and inaccurate contractor fees.
Unreported Monthly Permit Sales
Sales of monthly permits usually begin on the 20th of the previous month.  TECOM charges NRC employees $60 each, but only if the employee's name appears on an approved authorization list prepared by ASC.  When an individual purchases a monthly permit, TECOM completes the ASC authorization list by noting the permit number, purchase date, and sales amount.  The monthly permit sales for each day are subsequently recorded on the Daily Parking Log and the Monthly Parking Collection Statement.  TECOM also inputs the monthly parking transactions into its data base to provide NRC with a Monthly Parking Log.
In our review of monthly permit sales we found numerous cases where daily collections for monthly permit sales (reported on the Monthly Parking Collection Statements) were inconsistent with the amounts reported on the Daily Parking Logs.  We also found cases of missing permit numbers and breaks in permit number sequences on the Monthly Parking Logs.  Furthermore, we could not reconcile Monthly Parking Collection Statements with amounts shown on Monthly Parking Logs.
Because we could not directly compare TECOM's Monthly and Daily Parking Logs with the Monthly Parking Collection Statements, we requested TECOM to reconcile its bank deposits with amounts reported to NRC.  TECOM's bank deposit reconciliation revealed that additional funds should have been remitted to NRC.  We subsequently performed an independent bank deposit analysis for the period March 1994 through March 1995 and determined that the unreported sales were $9,314.  TECOM agreed that these funds were owed NRC.  Due to the nature of the discrepancies between the bank deposit analysis and the amounts reported to NRC, we referred the issue to OIG's investigative staff for follow-up.  The subsequent investigation did not disclose fraud and was therefore closed.
From an NRC standpoint, the agency conducted no reconciliations between the
Monthly Parking Collection Statements and the Monthly Parking Logs. In addition,
NRC staff did not verify that the permit numbers sold were in sequence and that
the destruction of unused permits had occurred. Similarly, TECOM did not track
permit number sequence, nor document breaks in the sequence or destruction of
unused permits. In response to our concerns that monthly permits must be safeguarded
and accounted for since they represent potential revenue, TECOM has subsequently
developed a monthly parking ticket distribution log. The log will track the
beginning and ending monthly permit number sold each day. TECOM has also proposed
a procedure to document the destruction of unused parking permits. Although
these procedures should lessen concerns about whether all parking receipts are
properly reported, we believe NRC should reconcile Monthly Parking Collection
Statements with the Monthly Parking Logs to ensure that all revenues due are
received. We also believe such reconciliation would require minimal effort on
the part of NRC's staff.
Inconsistent and Uncollected Daily Charges
Besides monthly parking, TECOM charges $6.00 for daily parking.  NRC visitors may park in the garage at no charge.  In accordance with contract terms, ASC must approve these visitors in advance.  The contract also provides for hourly parking at a prorated fee.  TECOM is responsible for issuing hourly/daily parking permits, collecting parking fees, and preparing Daily Parking Logs.  Copies of the Daily Parking Logs are submitted to NRC the following working day.
In our review of the Daily Parking Logs from March 1994 through July 1994, we questioned over 900 individual entries, or about 20 percent of the logs.  We found inconsistent and inaccurate charging of fees and free parking for NRC employees and contractors.  TECOM responded by stating that most entries in question occurred because of lack of NRC guidance regarding hourly rates and free parking.  Details of our findings are discussed later in this report under "Unclear Contract Terms."
Although NRC staff told us they reviewed Daily Parking Logs, we found no evidence
of such reviews. Because NRC did not document review of the logs and identify
and communicate problems to TECOM for corrective action, charging problems continued
throughout the audited period. Another area of concern is missing permit numbers.
By not reviewing Daily Parking Logs, NRC could not ensure that TECOM had implemented
adequate financial controls to account for all permit numbers. As with monthly
permits, hourly/daily permits should have been safeguarded and accounted for
properly. During our review, TECOM developed procedures for tracking hourly/daily
permit numbers and explaining discrepancies. Although these procedures should
lessen concerns whether all daily sales have been reported, NRC still needs
to review Daily Parking Logs to ensure that TECOM's charging practices are accurate,
financial controls are in place, and all permit numbers are accounted for.
Inaccurate Contractor Fees
TECOM's fees for parking garage management services are stipulated in the contract.  However, we found that TECOM had not billed fees in accordance with contract terms.  While the overall impact for the period March 22, 1994 through March 31, 1995 was a net overbilling of $195 to NRC, we found that TECOM incorrectly calculated its fee for four separate months.
From NRC's standpoint, it did not document review of TECOM's fee calculation.
Although fees were specified in the contract, they varied during the phase-in
period for TWFN and between the base and option years. We found confusion between
NRC and TECOM as to the start date for managing the TWFN garage. NRC Announcement
Number 40, dated April 26, 1994, stated that effective May 2, 1994, the two
garages at White Flint would be managed as one facility. We used this date (which
was confirmed by the Project Officer), in our calculation of the fee, contrary
to TECOM's current position that it started managing TWFN on March 22, 1994.
We believe a documented review by NRC was necessary to guarantee that dates
of actual parking garage management services and changing fee terms were appropriately
factored into TECOM's billings.
Unclear Contract Terms
We found that the agency did not provide sufficiently clear contract terms
and adequate guidance for TECOM to carry out contract requirements. These conditions
led to unsubstantiated parking rates, unsupported free parking, and improper
prorations of monthly parking fees. Based on criteria of what NRC and TECOM
thought the charging requirements were, we determined that daily parking fees
of up to $4,000 were not collected by TECOM during the four-month period ending
July 31, 1994, and penalties totaling as much as $12,000 were not assessed by
NRC. Due to the extensive number of entries questioned in our test period, we
did not conduct a similar review of entries from August 1994 through March 1995.
However, these months should be reviewed by NRC prior to a satisfactory contract
settlement with TECOM. Unclear contract terms may impact NRC's ability to hold
TECOM accountable for parking discrepancies and to negotiate contract adjustments.
Unsubstantiated Parking Rates
The contract states that parking fees will be set by NRC.  For the daily/hourly parking rates, we found various guidance but none was generated by NRC's Contracting Officer, Project Officer, or ASC contacts.  As of June 14, 1995, NRC had not provided TECOM with formal direction on setting daily/hourly parking rates.  Lack of formal direction led to unsubstantiated daily/hourly parking rates and inconsistent charging practices during the audited period.  Although we computed the amount of lost revenue from daily collections based on criteria of what NRC and TECOM thought the charging requirements were, lack of formal NRC direction will make recovery of this revenue more difficult.
For the monthly parking rates, it should be noted that as a result of our audit,
the monthly fees have been addressed by NRC in Contract Modification Number
9, effective May 19, 1995. Daily/hourly rates were not addressed in the modification.
Although monthly parking rates have been set, NRC needs to fulfill contract
terms by setting daily/hourly rates.
Unsupported Free Parking
The contract specifies that ASC will provide TECOM with a list of individuals who are allowed to park at no charge.  TECOM staff told us that most of the free parking approval was authorized verbally by NRC.  However, neither TECOM or ASC kept complete records of these approvals.  This lack of written approval and record keeping resulted in many instances of unsupported free parking.
During our review, we requested ASC to provide us with its criteria for free daily parking.  ASC provided us with a listing of visitors who are not to be charged, but this listing was never provided to TECOM.  Although we used the ASC visitor criteria to review the daily parking logs, NRC needs to formally clarify the inconsistency between the contract terms and ASC's visitor listing.  Similar to the situation with unregulated parking rates, NRC will find it difficult to recoup uncollected fees and related penalties.
We also found that TECOM issued free monthly parking permits every month to
six company employees. The contract states that the NRC will make available
six spaces but does not explicitly designate these spaces to be at no charge.
Another section of the contract allocates TECOM two parking spaces and specifies
that if additional parking spaces are required, the contractor is responsible
for applying for its own parking permits with the ASC. NRC needs to clarify
how many parking spaces should be provided to TECOM and whether any of these
spaces should be at no charge.
Improper Prorations of Monthly Parking Fees
Contrary to contract terms, we found that TECOM has been prorating monthly permit fees.  In response to our concerns, TECOM stated it followed NRC direction and relied on ASC to provide monthly listings of individuals who were authorized to pay a reduced rate.  Usually the reduced rate was based on less than a full month being available to an employee, such as a newly-hired employee who started with NRC in the middle of a month.
On May 19, 1995, as a result of our concerns and TECOM's subsequent refusal
to prorate without formal NRC notification, the Contracting Officer modified
Contract No. NRC-10-94-141 to allow proration. We believe this action corrected
the condition we found in our review.
Conclusions
In our review, we found numerous problems in TECOM's collecting and reporting of parking fees under Contract No. NRC-10-94-141.   In our opinion, these problems were caused by lack of adequate NRC oversight and unclear contract terms regarding the financial aspects of the parking garage management services.  NRC did not adequately review and approve TECOM's collections and remittances.  Additionally, because contract terms were unclear, TECOM established parking fee requirements without formal NRC approval.  Specific NRC deficiencies included the failure to: (1) perform regular, systematic reviews of TECOM reports, (2) confirm adherence to contract terms, (3) assure NRC received all monies due, and (4) establish, clarify, and modify pertinent contract requirements.
TECOM failed to establish adequate financial control procedures to assure accountability
for all procedural and financial aspects of the contract. During our audit,
TECOM recognized the need for and established improved financial controls, that
when fully implemented, should provide significantly improved accountability
for funds due NRC. Overall our audit of TECOM billings to NRC disclosed unreported
monthly permit sales of $9,314, uncollected daily charges of up to $4,000, and
unassessed penalties of as high as $12,000. Because of unclear contract terms,
however, NRC will find it difficult to recover amounts due for daily charges
and penalties. Based on our work, we believe that the Government has been unnecessarily
exposed to the potential for fraud, waste, and abuse.
Recommendations
To ensure that NRC effectively manages the financial aspects of the parking management portion of the TECOM contract, we recommend that the agency:
Require formal review and approval of all TECOM's remittances for its
net parking garage collections. Review should include reconciling TECOM's
performance reports with Monthly Parking Collection Statements, identifying
missing permit numbers for follow-up, ensuring that TECOM's charging practices
conform with established NRC requirements, and determining whether contractor
fees are in accordance with contract terms.
Update and clarify contract terms and conditions by either executing necessary
modifications or issuing other formal guidance to TECOM concerning daily/hourly
rates and free parking.
Complete the review of Daily Parking Logs for the period August 1994 through
March 1995 to determine if additional monies are due NRC. NRC's focus should
be on only those parking issues which have a reasonable likelihood of recovery.
Agency Comments
On August 21, 1995, the Deputy Executive Director for Nuclear Materials Safety, Safeguards and Operations Support responded to our draft report.  He agreed with our three recommendations to more effectively manage the financial aspects of the contract, and he provided us with corrective actions to date on Recommendations 1 and 2.  We believe these actions will bring much needed discipline to NRC's oversight of the contract and will add clarity to contract terms.
The Deputy Executive Director also included additional observations and supporting documentation on daily parking issues.  The supporting documentation was used to mitigate the amount of uncollected revenue and unassessed penalties we reported.  Although we requested but were not furnished some of this documentation during our audit, we have made changes to our report where appropriate.
The Deputy Executive Director's response also indicated that NRC's prior practices
were acceptable regarding verbal direction to TECOM and written direction by
staff other than the Contracting Officer, Project Officer, or ASC. Despite the
agency's position, we maintain that any verbal direction to TECOM should have
been confirmed in writing and that only appropriate personnel should have issued
written direction. We are encouraged that NRC's recent corrective actions now
cover both issues by controlling key financial criteria through contract modifications
issued by the Contracting Officer.
Objectives, Scope, and Methodology
The objectives of our audit were to review the U.S. Nuclear Regulatory Commission's (NRC) oversight of the parking garage management services and related TECOM, Inc. billings to NRC under Contract No. NRC-10-94-141.
Our audit was conducted in accordance with generally accepted Government auditing standards during the months of April and May 1995.  We interviewed NRC Headquarters staff in the Office of Administration's Division of Contracts and Division of Facilities and Property Management.  We also conducted interviews with TECOM's local staff in Rockville, Maryland and its corporate staff in Austin, Texas.
We reviewed NRC's contract with TECOM, correspondence between NRC and TECOM, the Federal Acquisition Regulation, and NRC's procurement Management Directives.  We also examined TECOM's reports relating to daily and monthly parking collections and contractor fee charges for the period March 22, 1994 through March 31, 1995.
We reviewed NRC's management controls, as well as TECOM's internal controls,
as they apply to the financial aspects of parking garage management services.
Agency Comments on Draft Report
United States Nuclear Regulatory Commission Washington, D.C.  20555-0001 August 21, 1995
Memorandum For:
Thomas J. Barchi Assistant Inspector General for Audits
From:
Hugh L. Thompson, Jr. Deputy Executive Director for Nuclear Materials Safety, Safeguards, and Operations Support
Subject:
Draft Report on Improvements Needed in NRC's Oversight of  Parking Garage Management Services
This responds to the July 12, 1995, memorandum transmitting the subject draft audit report and reflects recent discussions that Patricia Norry and her staff had with you regarding this report.
With respect to your specific recommendations, I submit the following:
Recommendation 1
Require formal review and approval of all TECOM's remittances for its net parking garage collections.  Review should include reconciling TECOM's performance reports with Monthly Parking Collection Statements, identifying missing permit numbers for follow-up, ensuring that TECOM's charging practices conform with established NRC requirements, and determining whether contractor fees are in accordance with contract terms.
Response
Agree.  The terms and conditions for parking management are currently outlined in several areas of the $22.9($10.7 million stated in the IG report) million Commercial Facilities Management contract; specifically, Section C.3.7. and Exhibits 9, 10, 11, 12, 13, and 14.  We agree that these provisions could be more clearly defined.  We therefore have consolidated and updated these procedures into one central document.  This document will replace Exhibits 9 through 14 of the contract.  Section C.3.7 has been revised accordingly.  A copy of the procedure and the revised Section C.3.7 of the contract are attached.
Completion date:  Completed
Recommendation 2
Update and clarify contract terms and conditions by either executing necessary modifications or issuing other formal guidance to TECOM concerning daily/hourly rates and free parking.
Response
Agree.  See the above response.
Completion date:  Completed
Recommendation 3
Complete the review of Daily Parking Logs for the period August 1994 through March 1995 to determine if additional monies are due NRC.  NRC's focus should be on only those parking issues which have a reasonable likelihood of recovery.
Response
Agree.  We plan to review the daily parking logs for the remaining months (August 1994 through March 1995) of the first year of the contract.  We also plan to pursue recovery of any monies due the NRC for uncollected revenues and penalties identified in this response to the IG's findings.
Completion date:  September 15, 1995
Additional Observations
To properly address your draft report and the revenues due NRC, we reviewed the "Summary of Audit Results" provided by your office, which identifies uncollected daily charges of $4,000(* These figures were rounded by the IG) and unassessed penalties of $13,000* referenced in the report.  Based on this review, we concluded that $12,491.50 of the $17,181 identified in the summary as uncollected revenues and penalties should not be characterized as such.  A summary of our review relative to your findings follows:
IG FINDING:  "Based on criteria of what NRC and TECOM thought the charging requirements were, we determined that daily parking fees of at least $4,000 were not collected by TECOM during the four-month period ending July 31, 1994, and penalties totaling about $13,000 were not assessed by NRC."
These estimates consist of four categories, as discussed below:
a) revenue loss based upon incorrect assessment of daily/hourly parking fee
Estimate of Uncollected Revenue
Estimate of Unassessed Penalties
IG
ADM
IG
ADM
$538
$0
$0
$0
The IG based his estimate of uncollected revenues on the assumption that the contractor was required to collect in accordance with the May 18, 1994, Zotto letter.  Our conclusion is that the contractor correctly relied upon article C.3.7.3B of the contract and Camille Kime's April 15, 1994, work request.  Hence, the NRC experienced no uncollected revenues under this category.
b) revenue loss as a result of free parking for unapproved visitors and service contractors
Estimate of Uncollected Revenue
Estimate of Unassessed Penalties
IG
ADM
IG
ADM
$3,370.00
$1,016.50
$11,740.00
$3,580.00
The IG based his estimate on an assumption that TECOM was allowing visitors into the garage at no charge because of the lack of guidance from the NRC.  In fact, in accordance with a June 14, 1994, memorandum from the NRC Project Officer to T. Zotto, effective on date of issuance, all visitors and service contractors were allowed to park in the garage at no charge.  In addition, TECOM received other guidance from the Administrative Service Center (ASC) on this issue; e.g., work requests dated May 21 and August 18, 1994, and documents presented at a November 18, 1994, meeting with TECOM representatives called specifically to discuss and provide guidance on garage parking policy.  ASC routinely issued verbal direction to TECOM regarding visitor parking within the context of this written guidance, copies of which are attached.
Based on this guidance, we reviewed each of the 587 parking entries questioned by the IG and determined that 408 entries were approved by ASC for free parking.  Therefore, no collections were required and no penalties were appropriate to be assessed for these 408 entries.
c) no parking permits assigned
Estimate of Uncollected Revenue
Estimate of Unassessed Penalties
IG
ADM
IG
ADM
$0
$0
$1,440.00
$0
In its review, the IG was unable to determine that proper daily parking permits were issued on April 12 and 13, 1994, and therefore concluded that NRC should assess TECOM penalties.  During our review, we located the permits actually issued which matched the logs for those days, copies of which are attached.  We, therefore, have determined that TECOM should not be assessed a penalty under this category.
d) parking refunds not supported with "time out" entries in the log
Estimate of Uncollected Revenue
Estimate of Unassessed Penalties
IG
ADM
IG
ADM
$93.00
$93.00
$0
$0
IG FINDING:  "For the daily/hourly parking rates, we found various guidance but none was generated by NRC's Contracting Officer, Project Officer, or ASC contracts.  As of June 14, 1995, NRC had not provided TECOM with formal direction on setting daily/hourly parking rates.  Lack of formal direction led to unregulated daily/hourly parking rates..."
NRC Work Request No. 03484 dated April 15, 1994, provided formal direction to TECOM regarding daily and hourly parking rates.  This direction, a copy of which is attached, was acknowledged by TECOM by signature dated April 26, 1994.
Throughout the report, the IG assumes that verbal direction to TECOM, for example,
with respect to approved visitor parking, is inappropriate and therefore resulted
in "unsupported free parking." While we agree that most aspects of the TECOM
contract should be managed through formal directives, we believe that within
the overall context of a sound parking management program, verbal authorization
to TECOM is efficient and necessary. Our revised procedures continue to allow
verbal direction but, unlike previous practice, require these directions to
be confirmed in writing.
In general, our examination of the facts contained in the IG's report did not
lead us to the broad conclusions which the auditors reached regarding the effectiveness
of ADM's administration of the parking provisions of the TECOM contract. The
auditors' findings, however, are very useful and we expect implementation of
the IG recommendations to result in a more efficient and better managed process.
U.S. NRC Functional Organization Chart
Figure 1: The
U.S. NRC Functional Organization Chart
Major Contributors to this Report
Anthony C. Lipuma Director, Program and Financial Audits
George T. Pourchot Senior Auditor
Teresa A. Hayes
Auditor
Glossary: Office of the Inspector General Products
Investigative
1. Investigative Report - White Cover
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. Event Inquiry - Green Cover
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3. Management Implications Report (MIR) - Memorandum
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate
correction of problems and to avoid similar issues in the future. Agency tracking
of recommendations is not required.
Audit
4. Audit Report - Blue Cover
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. Special Evaluation Report - Burgundy Cover
A Special Evaluation Report documents the results of short-term, limited assessments.
It provides an initial, quick response to a question or issue, and data to determine
whether an in-depth independent audit should be planned. Agency tracking of
recommendations is not required.
Regulatory
6. Regulatory Commentary - Brown Cover
Regulatory Commentary is the review of existing and proposed legislation, regulations,
and policies so as to assist the agency in preventing and detecting fraud, waste,
and abuse in programs and operations. Commentaries cite the IG Act as authority
for the review, state the specific law, regulation or policy examined, pertinent
background information considered and identifies OIG concerns, observations,
and objections. Significant observations regarding action or inaction by the
agency are reported in the OIG Semiannual Report to Congress. Each report indicates
whether a response is required.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees